FDIC OIG Press Release
U.S. Department
of Justice
James T. Jacks
Acting
United States Attorney
Northern District of Texas
FOR IMMEDIATE RELEASE
MEDIA INQUIRIES: KATHY COLVIN
THURSDAY, JUNE 4, 2009
www.usdoj.gov/usao/txn
PHONE: (214)659-8600
FAX: (214) 767-2898
MAN SENTENCED TO NEARLY FOUR YEARS IN FEDERAL PRISON
FOR SENDING THREATENING WHITE POWDER-LACED HOAX LETTERS
AMARILLO, Texas  Richard Goyette, a/k/a Michael Jurek, 47, was sentenced today by U.S. District Judge Mary Lou Robinson to serve a total of 46 months in federal prison and pay a $5000 fine and $87,734.40 in restitution to law enforcement for mailing 65 threatening letters from Amarillo to financial institutions in October 2008, announced acting U.S. Attorney James T. Jacks of the Northern District of Texas. Goyette pled guilty in March 2009 to one count of threats and false information and one count of threats and hoaxes, related to his mailings. He has been in federal custody since his arrest on February 2, 2009.
Richard Goyettes 46-month sentence should serve as a warning to those who intend to misuse the U.S. Mails for this type of criminal activity, said Inspector in Charge Randall C. Till, Fort Worth Division of the U.S. Postal Inspection Service. The Postal Inspectors, Special Agents of the FBI, state and local investigators and the U.S. Attorneys Office involved in the investigation deserve praise for the effort and dedication it took bring Goyette to justice. The U.S. Postal Inspection Service remains vigilant, pursuing criminals like Goyette to ensure the public's trust in a safe and secure mail system.
According to documents filed in the case, on September 25, 2008, the U.S. Office of Thrift Supervision (OTS) seized Washington Mutual Bank from its holding company, Washington Mutual, Inc., and placed it into receivership. The Federal Deposit Insurance Corporation (FDIC) was named receiver. The value of the stock in the holding company, Washington Mutual, Inc., plunged to less than a dollar per share as a result. The next day, the FDIC sold the bank's deposits, branches, and loan portfolio to JP Morgan Chase & Co. for a small fraction of their combined value.
On October 20, 2008, anonymous threat letters began arriving at Chase Bank, OTS, and FDIC offices nationwide. Over the next several days, a total of 65 threat letters were received in 11 different states and the District of Columbia. Sixty-four of the 65 contained an unidentified white powder, along with a threat that the person breathing the powder in would die within 10 days. The 65th letter to JP Morgan Chase & Company did not contain white powder but included a threat of the "McVeighing of your corporate headquarters within six months"  a reference to the 1995 bombing of the federal building in Oklahoma City by Timothy McVeigh.
All 65 threat letters were sent via the U.S. Postal Service, and all were postmarked from Amarillo on October 18, 2008. All of the letters containing powder were field screened and then tested at laboratories. All tests were negative for any hazardous materials. The letters required the attention of emergency responders and hazardous material response teams for hours at an unknown cost. The letters disrupted operations for Chase, FDIC, and OTS at each location where one was received.
The investigation by the FBI and the U.S. Postal Inspection Service (USPIS) revealed that a computer located in a library at the University of New Mexico (UNM) in Albuquerque, New Mexico, was used on October 5, 2008, to access Chase's web site and search addresses for nearly all of the Chase Bank locations which received white powder threat letters. That same UNM computer was used on the same date to access OTS's website and search for all the OTS offices which received white powder threat letters. That same UNM computer was also used to access the FDIC website on that same date. The Chase branch locator searches from the UNM computer were the only searches conducted in the months leading up to the mailings which covered that many victim branches. A computer at Central New Mexico Community College in Albuquerque, New Mexico, was also used to conduct branch locator searches on Chase's website on September 30, 2008. This took place six days prior to the computer searches conducted at UNM. Goyette had been a student at both UNM and Central New Mexico.
The investigation also showed that on October 17, 2008, the day before the letters were mailed, a car was rented in Albuquerque, New Mexico using a credit card under the name Michael Jurek. According to records obtained from the rental car company, Richard Leon Goyette, using his New Mexico driver's license under the name of Michael Jurek, rented the car and obtained permission to drive the car into Texas. Goyette returned the car approximately 24 hours later on October 18, 2008, at 11:48 a.m. in Albuquerque, having put 630 miles on the car. The approximate one-way distance between Albuquerque, New Mexico, and Amarillo, Texas, is 284 miles.
Acting U.S. Attorney Jacks praised the excellent, cooperative investigative efforts of the U.S. Postal Inspection Service and the FBI. Assistant U.S. Attorney Christy Drake of the Amarillo, Texas, U.S. Attorneys Office prosecuted the case.
###
Last updated: 6/11/07